                                                                   EMPLOYMENT AND TRAINING

U.S. Department of Labor                                           ADMINISTRATION


                     Office of Inspector General—Office of Audit




                                                                   IMPROVEMENTS ARE NEEDED BY THE
                                                                   NORTHWEST PENNSYLVANIA WORKFORCE
                                                                   INVESTMENT BOARD TO ENSURE SERVICES ARE
                                                                   DOCUMENTED AND PARTICIPANTS FIND JOBS
                                                                   RELATED TO THE TRAINING RECEIVED




                                                                                      Date Issued:   September 30, 2013
                                                                                   Report Number:      03-13-002-03-390
U.S. Department of Labor                                     September 2013
Office of Inspector General
Office of Audit
                                                             IMPROVEMENTS ARE NEEDED BY THE
                                                             NORTHWEST PENNSYLVANIA WORKFORCE
                                                             INVESTMENT BOARD TO ENSURE SERVICES
BRIEFLY…                                                     ARE DOCUMENTED AND PARTICIPANTS FIND
Highlights of Report Number 03-13-002-03-390 issued          JOBS RELATED TO THE TRAINING RECEIVED
to the Acting Assistant Secretary for Employment and
Training.                                                    WHAT OIG FOUND

WHY READ THE REPORT                                          The OIG found the Board met its performance goals to
                                                             provide WIA-funded services to participants to meet the
The Department of Labor (DOL), Office of Inspector           workforce development needs of the local area.
General (OIG) initiated a performance audit of the           However, our review of case files for a random sample
Workforce Investment Act (WIA) Title IB programs             of 288 participants found that 14 (5 percent) had
operated by the Northwest Pennsylvania Workforce             inaccurate exit dates. These exit date errors occurred
Investment Board (Board) and its fiscal agent, the           because the Board did not have adequate policies and
Regional Center for Workforce Excellence. This audit         procedures in place to ensure case workers
was in response to a request from Pennsylvania               documented in participant case files the services they
Senator Patrick Toomey and Congressman Michael               provided. While sample results showed these errors did
Kelly for a fiscal and programmatic review of the Board.     not materially impact the Board’s performance results
The Pennsylvania Bureau of Audits (Bureau) had               for PY 2011, there is a risk in future program years that
initiated a performance audit of fiscal issues at the        the effect could be significant.
Board based on a request the Bureau received from the
Pennsylvania Department of Labor and Industry. The           Additionally, our analysis of all 316 participants who
Bureau issued its report on July 30, 2013. Our audit         received training and exited the program between
focused on programmatic issues and how well the              April 1, 2010, and March 31, 2011, found that 131 either
Board met its performance goals.                             did not obtain employment (40), or their employment
                                                             was unrelated to the training they received (91).
WHY OIG CONDUCTED THE AUDIT

Our audit objective was to answer the following              WHAT OIG RECOMMENDED
question:
                                                             The OIG recommended that the Acting Assistant
    Did the Northwest Pennsylvania Workforce                 Secretary for Employment and Training require the
    Investment Board meet its performance goals to           Board to develop and implement policies and
    provide WIA-funded services to participants to meet      procedures requiring caseworkers to document in
    the workforce development needs of the local area?       participant case files the services that were provided
                                                             and improve its monitoring of contractors who provide
To answer our objective, we reviewed documentation in        WIA services to ensure their caseworkers comply with
the Board’s case files, and evaluated the WIA-funded         these requirements. Finally, we recommended that the
services participants received to determine whether          Board conduct a study or perform an analysis to
these services benefited the participants after their exit   determine why participants did not obtain employment
from the program. Our audit encompassed the Board’s          related to the training they received and use the results
Program Year (PY) 2011 WIA performance results and           to develop strategies to increase the percentage of
analysis of services and outcomes for all 1,161              participants who receive training services to find related
participants who exited between April 1, 2010, and           employment.
March 31, 2011.
                                                             ETA did not agree with our finding and recommendation
                                                             related to the percentage of participants who received
READ THE FULL REPORT                                         training services and did not find employment, or
                                                             employment related to the training they received after
To view the report, including the scope, methodology,        exiting the program.
and full agency response, go to: http://www.oig.dol.gov/
public/reports/oa/2013/03-13-002-03-390.pdf.                 L&I and the Board generally agreed with the findings
                                                             and recommendations.
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






             Northwest Pennsylvania Workforce Investment Board
                                 Report No. 03-13-002-03-390
                                                       U.S. Department of Labor – Office of Inspector General




Table of Contents



Assistant Inspector General’s Report ......................................................................... 1



Results In Brief .............................................................................................................. 3



Objective — Did the Northwest Pennsylvania Workforce Investment Board meet


its performance goals to provide WIA-funded services to participants to meet the 

workforce development needs of the local area? ...................................................... 5


          The NW PA WIB needs to ensure services are documented and 

             participants find employment related to the training they receive.................... 5



          Finding 1 — The NW PA WIB did not always ensure services were 

             supported. ....................................................................................................... 7


          Finding 2 — The NW PA WIB did not have internal goals for the 

             percentage of participants who received training and found 

             employment related to the training received.................................................... 9



Recommendations ...................................................................................................... 10



Exhibits
          Exhibit 1 Performance Measure Calculations for the Adult and Dislocated


             Worker Programs .......................................................................................... 15


          Exhibit 2 Performance Measure Calculation for the Youth Program................... 17


          Exhibit 3 Sampled Participants With Inaccurate Exit Dates ................................ 19



Appendices
          Appendix A Background ..................................................................................... 23


          Appendix B Objective, Scope, Methodology, and Criteria .................................. 27


          Appendix C Acronyms and Abbreviations .......................................................... 31


          Appendix D ETA Response to Draft Report ....................................................... 33


          Appendix E L&I Response to Draft Report ......................................................... 35


          Appendix F Board Response to Draft Report ..................................................... 37


          Appendix G Acknowledgements ......................................................................... 39






                                                            Northwest Pennsylvania Workforce Investment Board
                                                                                Report No. 03-13-002-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






             Northwest Pennsylvania Workforce Investment Board
                                 Report No. 03-13-002-03-390
                                     U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




September 30, 2013

                        Assistant Inspector General’s Report



Mr. Eric Seleznow
Acting Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, DC 20210

The Department of Labor (DOL), Office of Inspector General (OIG) initiated a
performance audit of the Workforce Investment Act (WIA) Title IB programs operated by
the Northwest Pennsylvania Workforce Investment Board (Board) and its fiscal agent,
the Regional Center for Workforce Excellence (RCWE). This audit was in response to a
request from Pennsylvania Senator Patrick Toomey and Congressman Michael Kelly for
a fiscal and programmatic audit of the Board’s and RCWE’s compliance with WIA. At
the time we received the request, the Pennsylvania Bureau of Audits (Bureau) had
initiated a performance audit of fiscal issues at the Board based on a request the
Bureau received from the Pennsylvania Department of Labor and Industry (L&I). We
confirmed through discussions with the Bureau that its audit covered the fiscal issues
contained in the Senator’s and Congressman’s request. The Bureau issued its audit
report on July 30, 2013. Our audit focused on programmatic issues and how well the
Board met its performance goals.

WIA is designed to provide employment and training services to assist eligible
individuals in finding and qualifying for meaningful employment and to help employers
find the skilled workers they need to compete and succeed in business. The primary
employment and training programs authorized under Title IB of WIA include the Adult,
Dislocated Worker, and Youth programs. WIA offers three levels of service for the Adult
and Dislocated Worker programs, which must be provided in the following sequence:
(1) Core; (2) Intensive; and (3) Training. Services for the Youth program — which do not
have a required order of sequence — composed of an assessment of skills and service
needs, development of service strategies, and preparation for postsecondary
educational opportunities and unsubsidized employment, as appropriate. WIA requires
that program services be delivered through a one-stop delivery system designed to
coordinate services of other partner employment and training programs and provide
participants with access to a seamless system of workforce investment services.

DOL’s Employment and Training Administration (ETA) is responsible for administering
WIA at the federal level. L&I is the state workforce agency (SWA) responsible for

                                        Northwest Pennsylvania Workforce Investment Board
                                        1                   Report No. 03-13-002-03-390
                                                 U.S. Department of Labor – Office of Inspector General


administering WIA in Pennsylvania, with 23 local Workforce Investment Boards (LWIB)
responsible for administering WIA Title IB programs at the local level.

The Board and RCWE, a not-for-profit public-private partnership, provide policy,
planning, and oversight of local workforce development programs covering six counties
in Pennsylvania’s northwest region. The Board contracts with organizations to provide
WIA services at its one-stop centers. For program year (PY) 2011 (July 1, 2011, through
June 30, 2012), the Board reported $4.9 million in WIA Title IB expenditures and 2,290
participants served.

L&I reports WIA program outcomes based on exiter data entered 1 into the L&I
Commonwealth Workforce Development System (CWDS). The CWDS automatically
exits participants from programs 90 days after the last date they receive services, which
is their exit date. L&I uses Unemployment Insurance wage records to report
employment status and wages for WIA program exiters. At the end of each program
year, L&I sends to ETA the WIA annual report on WIA exiters data, which ETA uses to
measure performance at both the SWA and LWIB levels.

Objective

Our audit objective was to answer the following question:

      Did the Northwest Pennsylvania Workforce Investment Board meet its
      performance goals to provide WIA-funded services to participants to meet the
      workforce development needs of the local area?

To answer our objective, we reviewed documentation in the Board’s case files, and
evaluated the WIA-funded services participants received to determine whether these
services benefited the participants after their exit from the program. Our audit
encompassed the Board’s PY 2011 WIA performance results. We reviewed case files
for a random sample of 288 participants to determine if the reported services and
outcomes were supported. We also reviewed a random sample of 56 participants who
received training services to determine if the training was in a demand occupation. We
analyzed the services and outcomes for all 1,161 participants who exited between
April 1, 2010, and March 31, 2011, to determine the level of services provided and the
employment and wage outcomes compared to when they entered WIA. 2 Of these
1,161 participants, 316 received training services which we analyzed to determine the
extent to which the participants found jobs related to the training received.

W e conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. W e believe that the evidence

1
 Participant data is entered into the CWDS by case workers and/or system generated for self-services.


2
 This was the most current data we could obtain at the time of our audit because data on outcomes are not available 

until 12-15 months after participants exit the program.



                                                     Northwest Pennsylvania Workforce Investment Board
                                                     2                   Report No. 03-13-002-03-390
                                                 U.S. Department of Labor – Office of Inspector General


obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.


RESULTS IN BRIEF

The Board met its performance goals to provide WIA-funded services to participants to
meet the workforce development needs of the local area. Specifically, the Board
exceeded the negotiated performance level for 8 of its 9 performance measures and
met at least 80 percent of the negotiated level for the remaining performance measure.
However, we found the Board did not always ensure that services entered in the CWDS
were supported by documentation in participant case files and it did not have goals for
the percentage of participants who received training and found employment related to
the training they received, although this was not required. Our analysis of the services 3
the Board provided to the 1,161 participants who exited the WIA programs between
April 1, 2010, and March 31, 2011, found they were comparable to national and SWA
levels. Our comparison of participants’ employment status when they entered the
program to when they exited also showed positive results.

Documentation in participant case files did not support the last documented service that
caseworkers entered in the CWDS. Specifically, our review of a random sample of
288 participants found that 14 (5 percent) had inaccurate exit dates. Accurately
documenting this service is important because it is used as the basis for the
participant’s exit date, which starts the time period for measuring participant outcomes.
The services entered in the CWDS were for dates that were later than case file
documentation supported. These exit date errors occurred because the Board did not
have policies and procedures in place requiring case workers to maintain
documentation for the services they provided. Additionally, the Board’s procedures for
monitoring its contractors did not include reviewing case files for support of services
entered in the CWDS. While our statistical results showed these errors did not
materially impact the Board’s performance results for PY 2011, there is a risk in future
program years that caseworkers could delay the participant’s exit from the program by
adding an unsupported service in the CWDS when they become aware of a positive
performance result (i.e., the participant obtained employment).

Of the 1,161 participants whose services we analyzed, 316 had received training. Our
analysis of these 316 participants found that 131 (42 percent) either did not obtain
employment, or their employment was unrelated to the training they received.
Specifically, 40 did not obtain employment, and of the 276 who did, 91 were employed
in jobs that were not related to the training they received. The overall percentage was
higher than the 37 percent we reported in a nationwide audit of WIA Adult and

3
 Adult and Dislocated Worker participants can receive one or more of the following services: (1) core; (2) intensive;
and (3) training. Youth participants can receive one or more of the following services: (1) assessment of skills and
service needs; (2) development of service strategies; and (3) preparation for postsecondary educational opportunities
and unsubsidized employment, as appropriate.

                                                     Northwest Pennsylvania Workforce Investment Board
                                                     3                   Report No. 03-13-002-03-390
                                               U.S. Department of Labor – Office of Inspector General


Dislocated Worker participants who received training. 4 As we reported in the nationwide
audit, WIA’s performance accountability system did not include the results of training
services provided to participants. Therefore, we recommended that ETA pursue
changes in WIA to include implementing a performance measure for training services to
assess training effectiveness and to improve accountability and transparency over WIA
funds invested in training participants for demand occupations. However, at the time of
this audit, WIA was in the reauthorization process. Without this reauthorization, WIA
cannot require the Board to measure the effectiveness of the funds used for training
services by determining the percentage of participants trained who obtained a job
related to the training they received. Furthermore, WIA does not prohibit the Board from
measuring the effectiveness of its use of WIA funds for this purpose.

We recommended the Acting Assistant Secretary for Employment and Training require
the Board to develop and implement policies and procedures requiring caseworkers to
document in participant case files the services that were provided and ensure WIA
participants are exited from the program after 90 days without a service. We also
recommended the Board improve its monitoring of contractors who provide WIA
services to ensure its caseworkers comply with these requirements. Finally, we
recommended that the Board conduct a study or perform an analysis to determine why
participants did not obtain employment related to the training they received and use the
results to develop strategies to increase the percentage of participants who receive
training services to find related employment.

AGENCY RESPONSE

ETA did not agree with our finding and recommendation related to the percentage of
participants who received training services and did not find employment, or employment
related to the training they received after exiting the program. ETA explained that WIA
does not have goals for the percentage of trained participants who find employment
related to the training and that it would not be appropriate to the NW PA WIB to conduct
the recommended study or analysis.

ETA was also concerned that since the OIG audit report did not adopt the findings
reported by the Bureau, it would not be able to take corrective action on serious
irregularities the Bureau’s audit disclosed.

L&I and the Board generally agreed with the findings and recommendations.

OIG CONCLUSION

ETA’s response did not result in any changes to the report. While the report recognizes
that WIA does not require the Board to have goals for the percentage of participants
who found employment that was related to the training they received, it does not prohibit
4
 Additional Information Needed to Measure the Effectiveness and Return on Investment of Training Services Funded
Under the WIA Adult and Dislocated Worker Programs, Report No. 03-11-003-03-39, September 30, 2011


                                                   Northwest Pennsylvania Workforce Investment Board
                                                   4                   Report No. 03-13-002-03-390
                                        U.S. Department of Labor – Office of Inspector General


states or local areas from evaluating the effectiveness of the training services it
provides, of which the extent to which participants find employment related to the
training they received is a factor. Having the Board study or analyze its training service
is a good business practice to assist Board officials with their decision making process
regarding the continuous improvement of training service in order to optimize the return
on investment of WIA funds used for training.

Regarding ETA’s concerns that it is aware of serious financial irregularities at the Board,
but unable to take corrective action because they were not endorsed or adopted in the
OIG report, this should not prohibit ETA from monitoring L&I’s efforts to address the
PA Bureau of Audits’ findings and recommendation. At our exit conference, L&I officials
told us they were in the process of analyzing the PA Bureau of Audits’ findings and
recommendation in order to ensure all misused funds were quantified and recovered
and appropriate action taken.

See Appendix D for the entire ETA response.

L&I and the Board agreed with the report findings and recommendations. See
Appendix E for the entire L&I and Board’s responses.


RESULTS AND FINDINGS

Objective — Did the Northwest Pennsylvania Workforce Investment Board meet
            its performance goals to provide WIA-funded services to participants
            to meet the workforce development needs of the local area?

      The NW PA WIB needs to ensure services are documented and participants find
      employment related to the training they receive.

Results

Although the Board met its WIA performance measures for PY 2011, we found
inadequate case file documentation for some WIA exiters and 42 percent of the
participants who received training did not find employment related to the training.
Specifically, the Board exceeded the negotiated performance level for 8 of its 9
performance measures and met at least 80 percent of the negotiated level for the
remaining performance measure. The following table provides the Board’s performance
measures, negotiated levels, the results, and our projected results for PY 2011.

                           Negotiated   Actual               Audited     Difference
  Measure      Program       Level      Level     Attained    Level    (Understated)   Attained

Entered         Adults       73.0%      74.1%      YES       74.1%         0.0%         YES
Employment
Rate          Dislocated
                             78.0%      82.1%      YES       81.6%         0.5%         YES
               Workers


                                          Northwest Pennsylvania Workforce Investment Board
                                          5                   Report No. 03-13-002-03-390
                                                  U.S. Department of Labor – Office of Inspector General



Employment           Adults         86.0%          93.4%         YES         92.4%           1.0%             YES
Retention
Rate              Dislocated
                                    92.0%          91.4%        YES(1)       91.4%           0.0%             YES
                   Workers
Six Months           Adults        $11,000        $13,576        YES        $13,576            $0             YES
Average
                  Dislocated
Earnings                           $14,250        $18,636        YES        $18,889          ($253)           YES
                   Workers
Placement in
Employment           Youth          67.0%          81.1%         YES         80.6%           0.5%             YES
or Education
Attainment of
Degree or            Youth          70.0%          81.3%         YES         81.3%           0.0%             YES
Certification
Literacy or
Numeracy             Youth          50.0%          62.2%         YES         62.2%           0.0%             YES
Gains
(1) Title 20 of the Code of Federal Regulations (CFR), Part 666.240(d), provides that performance that is at least 80
percent of the negotiated levels will be deemed achieving negotiated levels of performance.

Our analysis of the services the Board provided to the 1,161 participants who exited the
WIA programs between April 1, 2010, and March 31, 2011, found they were comparable
to national and Pennsylvania state-wide levels. Our comparison of participants’ wages
when they entered the program to when they exited also showed positive results. Of the
1,161 participants, 1,039 were Adult and Dislocated Workers and 122 were Youth. For
the 1,039 Adult and Dislocated Worker participants, our analysis showed that 504
(49 percent) received self-services such as job search and labor market information.
The percentage of self-service participants was lower than the national average of
68 percent and the Pennsylvania state-wide average of 62 percent. For the remaining
535 participants who received staff-assisted services, 250 (47 percent) received core, or
core and intensive services, and 285 (53 percent) received core, intensive, and training
services. Our analysis of the 122 Youth participants showed that all received
staff-assisted services and 31 (25 percent) received training services. There was no
comparable nation-wide or state-wide data available for these percentages.

Our comparison of participants’ wages when they entered the program to their
employment status when they exited also showed positive results. Of the 535 Adult and
Dislocated Worker participants who received staff-assisted services from the Board,
387 (72 percent) were employed in at least the first three quarters after exit, and their
wages increased 76 percent during this period compared to their wages in the three
quarters before they entered the program. Of the 122 Youth participants,
89 (73 percent) were employed in at least the first 3 quarters after exit or were placed in
post-secondary education.




                                                      Northwest Pennsylvania Workforce Investment Board
                                                      6                   Report No. 03-13-002-03-390
                                                U.S. Department of Labor – Office of Inspector General


Finding 1 — The NW PA WIB did not always ensure services were supported.

Our review of case files for a random sample of 288 participants found that
14 (5 percent) had inaccurate exit dates. These exit date errors occurred because the
Board did not have adequate policies and procedures in place to ensure case workers
documented in participant case files the services they provided. While sample results
showed these errors did not materially impact the Board’s performance results for
PY 2011, there is a risk in future program years that the effect could be significant. For
example, without adequate controls, caseworkers could delay a participant’s exit from
the program by adding an unsupported service in the CWDS until they become aware of
a positive performance result (i.e., the participant obtained employment).

Training and Employment Guidance Letter (TEGL) 17-05, Section 6(B)(1), defines
program exit as the point at which a participant has not received a service funded by the
program or a partner program 5 for 90 consecutive calendar days, and is not scheduled
for future services. The date of last service is used as the exit date. The TEGL goes on
to provide examples of activities that do not extend the period of participation or delay
program exit, such as required administrative case load management activities that
involve regular contact with the participant or employer to obtain information regarding
the participant’s employment status, educational progress, or need for additional
services. The exit date is important because it signals the start of the time to measure
the participants’ outcomes. According to Section 8(B) of the TEGL, all participants who
receive a core, intensive, or training service who exit the program are to be included in
performance measure calculations. 6 See Exhibits 1 and 2 for details on the performance
measures for the WIA Adult, Dislocated Worker, and Youth programs and how they are
calculated.

We reviewed case files for a random sample of 288 participants to determine if the
services and outcomes the Board reported to ETA via the CWDS were supported.
Specifically, we determined if case files documentation supported the last service
provided since the date of this service was used as the basis for the participant’s exit
date and started the time period for measuring participant outcomes.

Documentation in 14 of the 288 sampled participant case files did not support the last
service caseworkers entered in the CWDS. The services entered into the CWDS were
for dates that were later than what case file documentation supported. The following are
examples of the inaccurate exit dates:

    •		 Youth Case Number 2230204 – The Board reported the participant’s exit date as
        May 28, 2011. However, we found that the last documented service occurred on
        August 17, 2009. Specifically, the CWDS showed “Comprehensive and Guidance
        Counseling” service with a start date of September 30, 2010, and end date of
        May 28, 2011, which was used as the exit date to measure performance.
5
 Examples of a partner program are Wagner-Peyser, Trade Adjustment Act, Vocational Rehabilitation, etc.
6
 Section 136 of WIA expressly excludes WIA adult and dislocated worker program participants who only receive
self-service or informational activities from performance calculations.

                                                   Northwest Pennsylvania Workforce Investment Board
                                                   7                   Report No. 03-13-002-03-390
                                                 U.S. Department of Labor – Office of Inspector General


        According to a case note dated August 17, 2009, the caseworker put the
        participant in a hold status because the participant moved from area. 7 The next
        case note in the file was dated February 10, 2011, more than 90 days after
        August 17, 2010, indicating that the caseworker was unable to locate the
        participant. No partner program services were reported in the CWDS after
        August 17, 2009. We concluded the correct exit date was August 17, 2009, when
        the caseworker put the participant on a hold status.

    •		 Adult Case Number 442014 – The Board reported the participant’s exit date as
        August 19, 2010. However, we found that the last documented service occurred
        on April 2, 2009. Specifically, the CWDS showed “Occupational Skills Training”
        service with a start date of September 27, 2007, and an end date of
        August 19, 2010, which was used as the exit date to measure performance. The
        case file contained a transcript dated April 2, 2009, from the training contractor
        that showed the participant graduated with an Associate’s Degree in Specialized
        Technology on March 30, 2009. There were no partner program services after
        April 2, 2009. Therefore, we concluded the correct exit date was April 2, 2009,
        when the caseworker obtained the participant’s transcript.

    •		 Dislocated Worker Case Number 293446 – The Board reported the participant’s
        exit date as July 31, 2010. However, we found that the last documented service
        occurred on June 19, 2010. Specifically, the CWDS showed “Case Management
        for Participants Seeking Training Services” with a start date of February 3, 2010,
        and end date of July 31, 2010, which was used as the exit date to measure
        performance. Prior to July 31, 2010, the CWDS showed the participant received
        “Marketable Skill” services from March 18 to June 19, 2010, in a partner
        program. Therefore, we concluded the correct exit date was June 19, 2010, when
        the participant received the “Marketable Skill” service from the partner program.

These inaccurate exit dates did not always result in the participants being excluded from
the performance measure time period they were reported in. For example, for the
PY 2011 Entered Employment Rate (EER) measure, the participant had to exit the
program between October 1, 2010, and September 30, 2011. If the last supported
service date occurred within this time period, the participant still would have been
counted in the measure. Of the 14 errors identified, 7 of the correct exit dates were
within the time frame for the performance measure and 7 were outside of the time
frame, and therefore were erroneously included in the measure. See Exhibit 3 for details
on the 14 participants for whom we found incorrectly reported exit dates.

Overall, we concluded that our sample results did not adversely impact the Board’s
reported performance outcomes for PY 2011.

We identified two causes for why the exit dates were not always accurate. First, the
Board did not have policies and procedures in place that required case workers to
7
  A participant who has moved away from the area can be put in a hold status if the case worker expects them to
return.

                                                    Northwest Pennsylvania Workforce Investment Board
                                                    8                   Report No. 03-13-002-03-390
                                                 U.S. Department of Labor – Office of Inspector General


document in participant case files support for the services they provided. Second, the
Board’s policies and procedures for monitoring WIA service providers did not require a
review of case files to ensure they contained documentation to support services entered
in the CWDS. Otherwise, case workers could purposely delay exiting the participant
from the program until they were aware of a positive performance result.

Finding 2 — The NW PA WIB did not have internal goals for the percentage of
            participants who received training and found employment related to
            the training received.

Although the Board provided training in demand occupations, our analysis of the
316 participants who received training services and exited the program between
April 1, 2010, and March 31, 2011, found that 131 (42 percent) either did not obtain
employment or their employment was unrelated to the training they received.
Specifically, 40 did not obtain employment, and for those who did, 91 were in jobs that
were not related to the training they received. The Board did not have any internal goals
for the percentage of participants who found employment that was related to the training
they received to gauge the effectiveness of the funds it spent on training services.
Although WIA does not have any such requirement, it does not prohibit the Board from
measuring the effectiveness of the funds it uses for training services.

WIA8 requires SWAs and local workforce agencies (LWA) to provide in their WIA plans
information describing — by occupation — the needs of the state and local areas in
regard to current and projected employment opportunities. WIA, Section 134(d)(4)(G),
requires that training services be directly linked to occupations that are in demand in the
local area. Exceptions to this requirement are allowed for on-the-job and customized
training.

For identifying demand occupations, the Board used the High Priority Occupation List
(HPO) developed by L&I’s Center for Workforce Information Analysis (CWIA). Each
year CWIA develops an HPO list for each of the state’s local workforce investment
areas and provides a 60-day time period during which the Board may petition to add
occupations.

To determine if the Board provided training in demand occupations, we reviewed a
random sample of 56 participants who received training. We found the reported training
data to be accurate. Of these 56 participants, 10 received on-the-job or customized
training and 46 participants received training services through an individual training
account. WIA requires that training provided through an individual training account must
be in a demand occupation. We found all 46 received training in a demand occupation
that appeared on the HPO list.

However, our analysis of participants who obtained jobs after exiting the program
showed that a significant percentage of participants obtained jobs in a field other than

8
    WIA, Section 112(b)(4) for SWAs and 118(b)(1)(B)for LWAs

                                                    Northwest Pennsylvania Workforce Investment Board
                                                    9                   Report No. 03-13-002-03-390
                                               U.S. Department of Labor – Office of Inspector General


those for which they were trained. We analyzed the reported training data for all
316 participants (285 adults and 31 youth) who received training services and exited the
program between April 1, 2010, and March 31, 2011. We found that 131 (42 percent)
either did not obtain employment or their employment was unrelated to the training they
received. Specifically, 40 did not obtain employment, and of the 276 who did, 91 did not
obtain jobs that were related to the training they received. The overall percentage was
higher than the 37 percent we reported in a nationwide audit of WIA Adult and
Dislocated Worker participants who received training. 9

The Board did not have any internal goals for the percentage of participants who found
employment related to the training they received, and they were not required to. As we
reported in our nationwide audit of Adult and Dislocated Worker participants who
received training services, WIA’s performance accountability system did not include the
results of training services provided to participants, and we recommended that ETA
pursue changes in WIA to include a performance measure for training services.
However, at the time of this audit, Congress was still in the process of reauthorizing
WIA and several bills have were introduced which proposed changes in the areas of
performance accountability. Therefore, WIA continues to have no requirement for the
Board to measure the effectiveness of the funds used for training services by
determining the percentage of participants trained who obtained a job related to the
training they received. Conversely, WIA does not prohibit the Board from measuring the
effectiveness of its use of WIA funds for this purpose. This is important because recent
trends show the annual amount of funds allotted to SWAs for the WIA Adult and
Dislocated Worker programs are decreasing while the number of participants is
increasing. Setting goals such as this will assist the Board in determining how best to
allocate shrinking WIA funds as well as to maximize program effectiveness in assisting
individuals to pursue viable career paths leading to self-sufficiency and to improve
accountability over WIA funds used to train participants for demand occupations.


RECOMMENDATIONS

We recommend that the acting Assistant Secretary for Employment and Training direct
L&I to require the Board to:

1. Develop and implement policies and procedures requiring caseworkers to document
   in participant case files the services they provide.

2. Develop and implement policies and procedures to ensure caseworkers comply with
   ETA requirements that WIA participants are exited from the program after 90 days
   without a service, using the last date of service as the exit date.

3. Develop and implement policies and procedures for monitoring contractors who
   provide WIA services to ensure they comply with the requirements for documenting
9
 Additional Information Needed to Measure the Effectiveness and Return on Investment of Training Services Funded
Under the WIA Adult and Dislocated Worker Programs, Report No. 03-11-003-03-39, September 30, 2011

                                                   Northwest Pennsylvania Workforce Investment Board
                                                  10                   Report No. 03-13-002-03-390
                                      U.S. Department of Labor – Office of Inspector General


   services in the case files and exiting WIA participants from the program after 90
   days without a service, using the last date of service as the exit date.

4.		 Conduct a study or analysis to determine why participants did not obtain
     employment related to the training received and use results to develop strategies to
     increase the percentage of participants who receive training services find related
     employment.


We appreciate the cooperation and courtesies that ETA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix G.




Elliot P. Lewis
Assistant Inspector General
   for Audit




                                         Northwest Pennsylvania Workforce Investment Board
                                        11                   Report No. 03-13-002-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






             Northwest Pennsylvania Workforce Investment Board
            12                   Report No. 03-13-002-03-390
             U.S. Department of Labor – Office of Inspector General




Exhibits






                Northwest Pennsylvania Workforce Investment Board
               13                   Report No. 03-13-002-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






             Northwest Pennsylvania Workforce Investment Board
            14                   Report No. 03-13-002-03-390
                                      U.S. Department of Labor – Office of Inspector General


                                                                      Exhibit 1
Performance Measure Calculations for the Adult and Dislocated Worker Programs

The following tables provide a description of the numerator and denominator used to
calculate the performance measures.

   Entered Employment
   Of those who are not employed at the date of participation:

      Number of adult participants who are employed in the first quarter after the
      exit quarter.
                                     Divided by

      Number of adult participants who exited during the quarter after their exit
      date.

   Employment Retention
   Of those who are employed in the first quarter after the exit quarter:

   Number of adult participants who are employed in both the second and third
   quarters after the exit quarter
                                      Divided by

   Number of adult participants who were employed in the quarter after their exit
   date.

   Average Earnings
   Of those adult participants who are employed in the first, second, and third
   quarters after the exit quarter:

   Total earnings in the second plus the total earnings in the third quarters after the
   exit quarter
                                       Divided by

   Number of adult participants who were employed in the first, second, and third
   quarters after the exit date.




                                         Northwest Pennsylvania Workforce Investment Board
                                        15                   Report No. 03-13-002-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






             Northwest Pennsylvania Workforce Investment Board
            16                   Report No. 03-13-002-03-390
                                      U.S. Department of Labor – Office of Inspector General


                                                                                 Exhibit 2
Performance Measure Calculation for the Youth Program

The following tables provide a description of the numerator and denominator used to
calculate the performance measures.

   Placement in Employment or Education

   Of those who are not in post-secondary education or employment (including the
   military) at the date of participation:

   The number of youth participants who are in employment (including the military)
   or enrolled in post-secondary education and/or advanced training/occupational
   skills training in the first quarter after the exit quarter

                                           Divided by

   Number of youth participants who exit during the quarter.

   Attainment of a Degree or Certificate

   Of those enrolled in education (at the date of participation or at any point during
   the program):

   The number of youth participants who attain a diploma, GED, or certificate by the
   end of the third quarter after the exit quarter

                                           Divided by

   Number of youth participants who exit during the quarter.

   Literacy and Numeracy Gains

   Of those out-of-school youth who are basic skills deficient:

   The number of youth participants who increase one or more educational
   functioning levels

                                        Divided by

   Number of participants who have completed a year in the youth program (i.e.,
   one year from the date of first youth program service) plus the number of
   participants who exit before completing a year in the youth program.




                                         Northwest Pennsylvania Workforce Investment Board
                                        17                   Report No. 03-13-002-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






             Northwest Pennsylvania Workforce Investment Board
            18                   Report No. 03-13-002-03-390
                                                U.S. Department of Labor – Office of Inspector General


                                                                                               Exhibit 3
Sampled Participants With Inaccurate Exit Dates

                                                                                               Effect
        Program/            Participant                                           Number    Performance
       Performance         Identification       Reported            Audit Exit    of Days    Outcome
         Measure              Number            Exit Date             Date       Difference   Yes/No
       Youth-
   1                              2230204       05/28/2011      08/17/2009            -649     Yes
       Placement
  2 Adult/ERR                      871505       10/29/2010      03/10/2009            -598     Yes
  3 Adult/ERR                      442014       08/19/2010       3/29/2009            -508     Yes
    Dislocated
  4                               1605652       05/10/2011      02/11/2010            -453     Yes
    Worker/EER
  5 Adult/ERR                     1299543       06/30/2010      07/01/2009            -364     Yes
  6 Adult/ERR                     1725821       06/10/2010      11/21/2009            -201     Yes
    Dislocated
    Worker –
  7 Six-Months                    2213580       07/03/2010      01/20/2010            -164     Yes
    Average
    Earnings
    Dislocated
  8                                441905       04/07/2011      01/07/2011             -90      No
    Worker/EER
    Dislocated
  9                               2387698       08/15/2010      05/22/2010             -84      No
    Worker/ERR
    Dislocated
 10                               2570969       08/01/2010      05/22/2010             -71      No
    Worker/ERR
    Dislocated
 11                                293446       07/31/2010      06/19/2010             -42      No
    Worker/ERR
    Dislocated
 12                                  41440      01/02/2011      12/07/2010             -26      No
    Worker/EER
 13 Adult/ERR                     *753438       12/16/2010      01/27/2011             42       No
    Adult – Six
    Months
 14                               *753438       12/16/2010      01/27/2011             42       No
    Average
    Earnings

*This participant was selected within three performance measures.




                                                    Northwest Pennsylvania Workforce Investment Board
                                                   19                   Report No. 03-13-002-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






             Northwest Pennsylvania Workforce Investment Board
            20                   Report No. 03-13-002-03-390
               U.S. Department of Labor – Office of Inspector General




Appendices






                  Northwest Pennsylvania Workforce Investment Board
                 21                   Report No. 03-13-002-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






             Northwest Pennsylvania Workforce Investment Board
            22                   Report No. 03-13-002-03-390
                                       U.S. Department of Labor – Office of Inspector General


                                                                               Appendix A
Background

DOL OIG initiated a performance audit of WIA Title IB programs operated by the Board
and its fiscal agent, RCWE. This audit was in response to a request from Pennsylvania
Senator Patrick Toomey and Congressman Michael Kelly for a fiscal and programmatic
audit of the Board’s and RCWE’s compliance with WIA. The request cited the following
fiscal concerns.

   •		 Unauthorized use of Industry Partnership funds for expenses relating to RCWE’s
       holding Company.

   •		 Withholding of Industry Partnership (IP) funds from IP employees.

   •		 Withholding 25 percent of WIA funds for their operations, while Federal


       guidelines only permit 10 percent.



   •		 Conflict of interest between RCWE’s Chief Elected Officer/Chief Financial
       Officer/Holding Company President, the Executive Committee of the NWPA
       Workforce Investment Board, and the RCWE Holding Company Board members.

   •		 Disregard for maintaining a firewall between fiscal operations and programmatic
       one-stop operations.

   •		 Excessive and wasteful spending, including unallowable costs.

   •		 Alleged illegal use of federal and state public dollars.

   •		 Funds mismanaged by alleged withholding of training funds from shareholders.

   •		 Perceived disregard for legal and fiscal compliance of policies, procedures, and
       laws.

The request did not include any specific concerns regarding the Board’s programmatic
operations. At the time of the request, we learned the Bureau had initiated a
performance audit of fiscal issues at the request of L&I, which had various fiscal
concerns of the Board. Bureau officials informed us that their audit would cover the
fiscal concerns in the Senator’s and Congressman’s request. Therefore, our audit
focused on the Board’s program performance and its compliance with WIA.

The Bureau issued its audit report on July 30, 2013, copies of which were provided to
Senator Toomey and Congressman Kelly.

WIA is designed to provide employment and training services to assist eligible
individuals in finding and qualifying for meaningful employment and to help employers


                                          Northwest Pennsylvania Workforce Investment Board
                                         23                   Report No. 03-13-002-03-390
                                      U.S. Department of Labor – Office of Inspector General


find the skilled workers they need to compete and succeed in business. The primary
employment and training programs authorized under Title IB of WIA include the Adult,
Dislocated Worker, and Youth programs. WIA provides three levels of service for the
Adult and Dislocated Worker programs, which must be provided in the following order of
sequence:

      Core services – career counseling, job search and placement assistance, labor
      market information identifying job vacancies, skills necessary for occupations in
      demand, and relevant employment trends.

      Intensive services - comprehensive assessments, development of individual
      employment plans, counseling, case management, and short-term prevocational
      services.

      Training Services – occupational skills training, on-the-job training, customized
      training, entrepreneurial training, skill upgrading, job readiness training, and adult
      education and literacy activities in conjunction with other training.

Services for the Youth program — which do not have a required order of sequence —
include assessment of skills and service needs, development of service strategies, and
preparation for postsecondary educational opportunities and unsubsidized employment,
as appropriate.

WIA requires that program services be delivered through a one-stop delivery system
designed to coordinate services of other partner employment and training programs and
provide participants with access to a seamless system of workforce investment
services.

DOL’s ETA is responsible for administering WIA at the federal level. L&I is the SWA
responsible for administering WIA in Pennsylvania, with 23 LWIBs responsible for
administering WIA Title IB programs at the local level.

The Board and RCWE, a not-for-profit public-private partnership, provide policy,
planning, and oversight of local workforce development programs covering six counties
in Pennsylvania’s northwest region. The Board comprises committee members
representing business, labor, education, social services, and government agencies
throughout Northwest Pennsylvania. Working in cooperation with chambers of
commerce, economic development organizations, planning commissions, and others,
the Board focuses its development activities on key industry segments that include
electronics manufacturing, food processing, construction, health care, metal fabrication,
plastics, technology, lumber and hardwoods, oil and gas, transportation, and mining.
The Board contracts with organizations to provide WIA services at its one-stop centers.
For PY 2011 (July 1, 2011 through June 30, 2012) the Board reported $4.9 million in
WIA Title IB expenditures and 2,290 participants served. RCWE headquarters is located
at 210 Chestnut Street, Meadville, PA.


                                         Northwest Pennsylvania Workforce Investment Board
                                        24                   Report No. 03-13-002-03-390
                                               U.S. Department of Labor – Office of Inspector General


LWIBs in Pennsylvania report data on program participants to L&I through the CWDS.
The CWDS automatically exits participants from programs 90 days after the last date
they receive services, which is their exit date. As required by WIA, L&I uses
unemployment insurance wage records to determine the employment status and wages
for those participants who exited WIA programs. At the end of each program year, L&I
prepares a WIA annual report to ETA of data on participants served and exited (exiters)
from WIA Title IB programs. L&I reports individual participant data to ETA using the
Workforce Investment Streamlined Performance Reporting (WISPR). ETA uses this
data to measure performance at both the SWA and LWIB level.

The following are the WIA Title IB performance measures. 10

        Adult and Dislocated Workers

        Entered Employment


        Employment Retention


        Average Earnings



        Youth

        Placement in Employment or Education


        Attainment of a Degree or Certificate


        Literacy and Numeracy Gains






10
  These are known as the common performance measures for WIA programs, which are a set of common
performance measures established by the federal Office of Management and Budget and ETA to be applied to all
federal employment and training programs.

                                                   Northwest Pennsylvania Workforce Investment Board
                                                  25                   Report No. 03-13-002-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






             Northwest Pennsylvania Workforce Investment Board
            26                   Report No. 03-13-002-03-390
                                                U.S. Department of Labor – Office of Inspector General


                                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

      Did the Northwest Pennsylvania Workforce Investment Board meet its
      performance goals to provide WIA-funded services to participants to meet the
      workforce development needs of the local area?

Scope

Our audit encompassed the Board’s PY 2011 (July 1, 2011 through June 30, 2012) WIA
performance results reported to L&I. The following describes the specific time period for
each of the PY 2011 performance measure results:

Adult and Dislocated Worker

For the EER, exiters from October 1, 2010, to September 30, 2011, who were not
employed when entering the program.

For the ERR, exiters from April 1, 2010, to March 31, 2011, who were employed the first
quarter after exit.

For the average earnings, exiters from April 1, 2010, to March 31, 2011, who were
employed the first, second, and third quarters after exit.

Youth

For the placement in employment or education, exiters from October 1, 2010, to
September 30, 2011, who were not employed or in post-secondary education when
entering the program.

For the Attainment of Degree or Certification, exiters from October 1, 2010, to
September 30, 2011, who were enrolled in education at date of participation or any
point during the program.

For Literacy or Numeracy Gains, exiters from July 1, 2010, to June 30, 2011, who were
out-of-school youth who were basic skills deficient.

We analyzed the services and outcomes for all 1,161 participants who exited between
April 1, 2010, and March 31, 2011. 11

11
  This was the most current data we could obtain at the time of our audit because data on outcomes are not
available until 12-15 months after participants exit the program.

                                                    Northwest Pennsylvania Workforce Investment Board
                                                   27                   Report No. 03-13-002-03-390
                                      U.S. Department of Labor – Office of Inspector General


We conducted our work between January and April, 2013, at the Board’s offices located
in Erie, PA.

W e conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. W e believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

To answer our objective, we reviewed support in the Board’s case files, and evaluated
the WIA-funded services participants received to determine whether these services
benefited the participants after their exit from the program.

We reviewed case files for a random sample of 288 participants to determine if the
reported services and outcomes were supported. Since not all participants received
training services, we also reviewed a random sample of 56 participants who did receive
training services to determine if the training provided was in a demand occupation. We
analyzed the services and outcomes for all 1,161 participants who exited between
April 1, 2010, and March 31, 2011, to determine the level of services they received and
their employment and wage outcomes as compared to when they entered WIA. Of
these 1,161 participants, 316 received training services which we analyzed to determine
the extent to which participants found jobs related to the training received.

Reliability Assessment

We assessed the reliability of ETA’s WISPR data by performing tests for completeness,
accuracy, and consistency of the data elements used in the audit, and reviewing
existing information about the data. We determined the data was sufficiently reliable for
the purposes of this audit.

Sampling

We determined a universe for each of the performance measures audited covering
PY 2011, and obtained supporting WISPR data for the participants used in the
calculation as described in Exhibits 1 and 2. The following schedule below provides the
denominator of the nine performance measures and our denominator sample size:




                                         Northwest Pennsylvania Workforce Investment Board
                                        28                   Report No. 03-13-002-03-390
                                             U.S. Department of Labor – Office of Inspector General




                                     Number of Participants       Number of Participants
 Performance        WIA Title IB        Reported in the             Sampled From the
   Measure           Program             Denominator                  Denominator
                      Adults                 108                           30
EER                 Dislocated
                     Workers                    369                          36

                      Adults                     91                          30
ERR
                    Dislocated
                     Workers                    349                          36

Six Months            Adults                     85                          30
Average
Earnings            Dislocated
                     Workers                    319                          36
Placement in
Employment of
Educations         Youth (14-21)                106                          30
Attainment of
Degree or
Certification      Youth (14-21)                 80                          30
Literacy or
Numeracy Gains     Youth (14-21)                 45                          30
TOTALS                                         1,552                        288

For sampling we used a confidence level of 90 percent and a sampling precision of
10 percent. Based on the sample results, we projected the number of participants who
should not have been reported in the denominator, meaning the inaccurate exit dates
would have excluded the participant from being reported in the performance measure
time period. We used these projections to estimate the number of participants in the
numerator. The following table provides our sample results, projections for the
denominator, and estimates for the numerator.

                                                                            Revised
                               Participants                               Participants
                               Numerator/         Actual      Projected   Numerator/       Revised
  Measure        Program       Denominator        Level        Errors     Denominator       Level

Entered          Adults            80/108             74.1%      0           80/108        74.1%
Employment
Rate           Dislocated
                                   303/369            82.1%      10         293/359        81.6%
                Workers
Employment       Adults             85/91             93.4%      12          73/79         92.4%
Retention
Rate           Dislocated
                                   319/349            91.4%      0          319/349        91.4%
                Workers
Six Months       Adults        $1,153,929/85      $13,576         -       $1,153,929/85    $13,576



                                                Northwest Pennsylvania Workforce Investment Board
                                               29                   Report No. 03-13-002-03-390
                                         U.S. Department of Labor – Office of Inspector General


Average         Dislocated
Earnings                     $5,944,851/319      $18,636   ($89,361)   $5,944,851/310   $18,889
                 Workers
Placement in
Employment        Youth         86/106           81.1%        3           83/103        80.6%
or Education
Attainment of
Degree or         Youth          65/80           81.3%        0            65/80        81.3%
Certification
Literacy or
Numeracy          Youth          28/45           62.2%        0            28/45        62.2%
Gains


A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed
and placed in operation. This included reviewing NW PA WIB policies and procedures
related to maintaining participant files. W e confirmed our understanding of these
controls and procedures through interviews and documentation review and analysis.
Our consideration of NW PA WIB internal controls for maintaining participant files
would not necessarily disclose all matters that might be reportable conditions.
Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected.

Criteria

    •		 WIA of 1998

    •		 CFR, Title 20, Part 652 et. al, August 11, 2000

    •		 TEGL 17-05 – Common Measures Policy of ETA’s Performance Accountability
        System and Related Performance Issues

    •		 TEGL 14-00 – WIA Performance Reporting System

    •		 TEGL 14-00, Change 1 – Guidance on WIA Management Information and
        Reporting System

    •		 TEGL 14-00, Changes 2 and 3 – WIA Annual Report Narrative

    •		 WIA Annual Report: General Reporting Instructions and ETA Form 9091

    •		 RCWE Policies and Procedures for Case files and Monitoring



                                               Northwest Pennsylvania Workforce Investment Board
                                              30                   Report No. 03-13-002-03-390
                                  U.S. Department of Labor – Office of Inspector General


                                                                          Appendix C
Acronyms and Abbreviations

Bureau        Pennsylvania Bureau of Audits

Board         Northwest Pennsylvania Workforce Investment Board

CFR           Code of Federal Regulations

CWDS          Commonwealth Workforce Development System

CWIA          Center for Workforce Information Analysis

DOL           U.S. Department of Labor

EER           Entered Employment Rate

ERR           Employment Retention Rate

ETA           Employment and Training Administration

HPO           High Priority Occupation List

L&I           Pennsylvania Department of Labor and Industry

LWA           Local Workforce Agency

LWIB          Local Workforce Investment Board

OIG           Office of Inspector General

PY            Program Year

RCWE          Regional Center for Workforce Excellence

SWA           State Workforce Agency

TEGL          Training and Employment Guidance Letter

WIA           Workforce Investment Act

WISPR         Workforce Investment Streamlined Performance Reporting




                                     Northwest Pennsylvania Workforce Investment Board
                                    31                   Report No. 03-13-002-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






             Northwest Pennsylvania Workforce Investment Board
            32                   Report No. 03-13-002-03-390
                                                  U.S. Department of Labor – Office of Inspector General


                                                                                                              Appendix D
ETA Response to Draft Report



     U.S. Department of Labor                             Assistant Secretary for
                                                          Employment and Training
                                                          Washington, D.C. 20210
            SEP 2 6 2013



         MEMORANDU M FOR:                ELLIOT P. LEWIS
                                         Assistant .Lnspector General
                                         Office of Audits                  ~\ ~
         PROM:                           ERIC M. SELEZNowC'yt\ · '                  lfJ
                                         Acting Assistant Secrdiiry      -
                                         Employment and Training Administration

         SUBJECT:                        Response to Office oflnspector General's Audit Improvements Are
                                         Needed By The Northwest Pennsy lvania Worliforce investment
                                         Board To Ensure Services Are Documented And Parlicipanls Find
                                         Jobs Related To The Training Received, Audit Report 03-1 3-002-
                                         03-390

         The Employment and T raining Administration (ETA) appreciaLes the OJJportunity to provide a
         response to the Office of the Inspector General's (OIG) audit repo1i on Improvements that are
         Needed by the Northwest Pennsylvania Workforce Inves tment Board (No1thwest WJB) to
         Ensme S.::rvices are Documented and Participants Find Jobs Re lated to the Training Received.
         We acknowledge the time and effort that the OIG spent examining data of W.LA participants
         served by the Northwest WIB who received training services.

         ETA does not agree with the premise in Finding 2 that the Northwest WIB should have "goals
         for the percentage of participants who received training and fo und employment related to the
         train.ing received." Elsewhere in the discussion regarding Finding #2, the OIG states " WIA does
         not have any such requirement ... ."In ETA's opin,ion, Ol G should not have embarked o n this
         Finding.

         In Finding 2, OIG also repeats the suggestion made in Report No. 03-11-003-03-39 (9/30/11)
         ("Additional Information Needed to Measure the Efl'ectiveness and Return on Investment of
         Training Services Funded Under the WIA Adult and Dislocated Worker Programs,") "that ETA
         purst1e changes in WIA to include a performance measure for tra.ining services." ETA repeats its
         response provided to Report No. 03-11-003-03-39: "[a]s Congress moves forward ro reauthorize
         WJA, it and the Administration may consider additional policy positions such as that contained
         in this recommendation; however, ETA cannot predict whether that is likely, nor can it commit to
         pursue a law change within the conlext ofthis response." (Emphas is added.)

         ETA generally endorses Recommendations I through 3, as they will improve the perfOrmance
         accountability oftbe Northwest WIB. However, ETA would like to note that the aud it of one
         local area is j w;t that - the auui t of. one local area. Given U1e structure of WTA in which stares are
         the grantees of the federal government and the programs are designed to allow for fl exibility in




                                                       Northwest Pennsylvania Workforce Investment Board
                                                      33                   Report No. 03-13-002-03-390
                                       U.S. Department of Labor – Office of Inspector General




decision-making at the state and local levels, we hope that addressing these recommendations
can be viewed in light of the relationship between the Federal government as administering the
programs and state and local governments implementing them with their direct customers in
mind.

With regard to Recommendation 4, ETA responded as follows to a similar Recommendation
(Number 3) to Report No. 03-11-003-03-39 referenced above: "As part of our continuing
guidance to the system, ETA plans to publish a Training and Employment Guidance Letter
(TEGL) which provides information on improving data collection for the 'training-related
employment" data element. ETA staff also will continually examine data trends to determine
how quickly improvements are made within the system."

Rather than a TEGL, Training and Employment Notice (TEN) 5-13 was released in early
September, 2013. TEN 5-13 focuses on the current stateoftraining·related employment and
occupation information in the Workforce Investment Act Standardized Record Data (WIASRD),
the difliculties and expense in collecting this particular element, and some promising strategies
slates use to increase reporting on it from a performance reporting perspective. The primary
resource for collecting such training-related post program outcomes for participants who are
employed is state wage record databases. However, state wage record databases do not currently
contain occupation information. The vast majority of state wage record databases do contain
industry information, which has been added to the WIASRD and will be collected in PY 2013
WlASRD submissions. lt is not feasible at this point to require individual grantees to achieve
I00 pcrcem response rates on post-program training related employment when the information is
collected manually.

Therefore. ETA does not agree with Recommendation 4, which would require that NW WIB
·'conduct a study or analysis to determine why participants did not obtain employment related to
the training received and use results to develop strategies to increase the percentage of
participants who .. . find related employment." States and local areas must make decisions on
the use of their resources, including on the amount of time spent on follow up activities to gather
information such as training-related employment. It is not appropriate or feasible for ETA to
require certain analysis or study at the local WIB leveL

Finally, we note that the OIG referenced a fiscal audit of the Northwest WlB by the
Pennsylvania Bureau of Audits, and that tile OJG had therefore determined not to undertake a
fiscal audit of the Northwest WIB. The audit of the Northwest WIB by the Pennsylvania Bureau
of Audits resulted in a number of findings of serious financial in·egularities and inappropriate
decisions. ETA is concerned that, ~cause 010 has not adopted the findings of the Pennsylvania
Bureau of Audits, we are aware of findings regarding apparent fiscal mismanagement of the
Northwest WIB, but are unable to take corrective action because the Department's OIG has not
endorsed or adopted the findings. Therefore, we request th~t the OIG take appropriate action to
resolve this problem.




                                           Northwest Pennsylvania Workforce Investment Board
                                          34                   Report No. 03-13-002-03-390
                                                             U.S. Department of Labor – Office of Inspector General


                                                                                                                          Appendix E
L&I Response to Draft Report




           -
         ~ pennsylvania
          /if        DEPARTMENT OF LABOR & INDUSTRY




         September 27, 2013


         Elliott P. Lewis
         Assistant Inspector General for Audits
         U.S. Department of labor
         Office of Inspector General
         Washington, DC. 20210



         Dear Mr. Lewis:

         The Pennsylvania Department of labor & Industry (L&I) has reviewed the draft audit report, number 03-
         13-002-03-390, ofthe Workforce Investment Act (WIA) Title IB programs operated by t he Northwest
         Workforce Investment Board (NW WI B) as well as the responses provided by the NW WI B. L&l's
         response to the corrective actions suggested by the NW WIB and the federal recommendations are
         below.

         Finding 1- The NW PA WIB did not always ensure services were supported.

         The finding identified 1) t he need for policies and procedures that require case wor kers to document in
         participant case files support for the services they were provided; and (2) the need to update policies
         and procedures related to the monitoring of W IA service providers to require a review of case files t o
         ensure they contain documentation to support services entered in the Commonwealth Workforce
         Development System.

         L&l acknowledges that these concerns were relative to previo us service providers as the NW WIB
         indicates. To remedy this issue the NW WIB has committed to addressing these issues through
         formalized new or revised policies. L&l believes these new or revised policies w ill appropriately address
         these concerns.

         NW WIB also asserts the single service provider Venango Training and Development Center has directed
         staff to adopt the process of "hard exiting" participants upon 90 days of non-activity. This is not an
         acceptable practice and is not appropriate to build into new or revised policies. L&l w ill refer the NW
         WIB to Training and Employment Guidance Letter 17-05, which identifies the only circumst ances which a
         participant should be hard exited.

         The NW WIB's response indicates the Regiona l Center for Workforce Excellence will work with the NW
         WIB and service provider(s) to draft the new or revised policies. It will be imperative however that the
         NW W IB bear the responsibility of drafting the policies and work w it h the service provider(s) to ensure
         requirements are being met.




                                  Department of Labor & Industry 1 Deputy Secretary for Workforce Development
                            651 Boas Street I Harri sburg, PA 17121 1717.787.0805 1F 717.214.3806 1 www.dli.state.pa.us




                                                                  Northwest Pennsylvania Workforce Investment Board
                                                                 35                   Report No. 03-13-002-03-390
                                          U.S. Department of Labor – Office of Inspector General




Finding 2- The NW WIB did not have goals for the percentage of participants who received training
and found employment related to the training received.

The NW WIB's response indicates they plan to work with their service provider and L&l to conduct a
survey or analysis to determine why participants did not obtain employment related to train ing. L&l will
work with the NW WIB to accomplish this goal.

Recommendations

L&l is in agreement with the Office of Inspector General's recommendations and will require the NW
WIB to address them.

Please contact me should you have further questions regarding our response. I can be reached at 717-
705-8570, or via email at mstaton@pa.gov.

Sincerely,




Michelle L. Staton

Deputy Secretary for Workforce Development




                                              Northwest Pennsylvania Workforce Investment Board
                                             36                   Report No. 03-13-002-03-390
                                                 U.S. Department of Labor – Office of Inspector General


                                                                                                           Appendix F
Board Response to Draft Report




                           RESPONSE TO US DOL OIG DISCUSSION DRAFT REPORT IDDRl




         Finding 1 - The NW PA WIB d id not alw ays ensure services were supported - The information
         related to this finding involves the previous contractors. The finding identifies (1) the need for
         policies and procedures to document in participant case files support for the services they were
         provided; and (2) the need to update policies and procedures related to the monitoring of WIA
         program contractors to require a review of case files to ensure they contain documentation to
         support services entered in the CWDS. Both items have been addressed through programmatic
         means. These issues will be formalized in new or revised policies. Our current single program
         contractor, Venango Training and Development Center (VTDC), independently identified and
         addressed this issue in July 2012 by directing staff to hard exit an individual from WIA services
         when these services are no longer needed or a client ceases using WIA services. This action is
         based on a determination made by the VTDC staff coordinator. The procedural change by VTDC
         addresses this finding. Additionally, the RCWE will work with the current program contractor
         and the WIB to adopt policies and procedures to formalize the hard exit procedure currently
         being utilized.

         The RCWE will work with the current program contractor and the WIB to draft formal policies
         and procedures that will requ ire a secondary file review and sign-off by a program supervisor as
         verification that services are appropriately documented and accurate exit dates have been
         entered for participants. We wi ll develop and implement policies to ensure caseworkers
         comply with ETA requ irements that WIA participants are exited from the program after 90 days
         w ithout a service, using the last date of service as the exit date. We will develop and
         implement policies and procedures for monitoring program contractors who provide WIA
         services to ensure they comply with the requ irements for documenting services in the case files
         and exiting W IA participants from the program after 90 days without a service, using the last
         date of service as the exit date.




         Finding 2 - The NW PA W IB did not have goals for the percentage o f participants w ho
         r eceived t raining and found employment re lated to the t raining received- We agree this is an
         area that needs to be addressed. The finding addresses a matter not requ ired by the WIA, but
         is considered to be a good practice for a WIB to set goals to assist in determining how best to
         allocate shrinking WIA funds and to maximize program effectiveness in assisting individuals to
         pursue viable career paths leading to self-sufficiency and to improve accountability over WIA
         funds used to train participants for high-priority occupations. We will work with the current
         program contractor to identify the criteria that need to be involved in conducting such a study




                                                     Northwest Pennsylvania Workforce Investment Board
                                                    37                   Report No. 03-13-002-03-390
                                          U.S. Department of Labor – Office of Inspector General




or analysis to determine why participants did not obtain employment re lated to the training
received. We anticipate discussions with PA Department of Labor and Industry regard ing this
goal.




RECOMMENDATIONS

This section provides four items addressed to the acting Assistant Secretary for Employment
and Training, recommending that the acting Assistant Secretary direct the Pennsylvania
Department of Labor & Industry to requi re to:

    1.   Develop and implement policies and procedures requiring caseworkers to document in
         participant case files the services they provide.


    2. Development and implement policies and procedures to ensure caseworkers comply
         with ETA requirements that WIA participants are exited from the program 90 days
         without a service, using the last date of service as the exit date.


    3. Develop and implement policies and procedures for monitoring contractors who provide
         WIA services to ensure they comply with the requirements for documenting services in
         the case f iles and exiting WIA participants from the program after 90 days without a
         service, using the last date of service as the exit date.


   4. Conduct a study or analysis to determine why participants did not obtain employment
         related to the training received and use the results to develop strategies to increase the
         percentage of participants who receive training services find related employment.

We agree with the recommendations. Additionally, and through our response to Finding 1, we
have noted that recommendation numbers 1- 3 have already been addressed from a
programmatic perspective in July of 2012 through our current program contractor. The RCWE
and the current program contractor will work with the WIB to develop appropriate policies and
procedures to formalize what has been occurring programmatically.

With respect to recommendation number 4, we will begin an internal planning process to
ascertain how to conduct such a study or analysis. We would work with the Department of
Labor & Industry in planning for, and conducting, such a study or analysis.




                                              Northwest Pennsylvania Workforce Investment Board
                                             38                   Report No. 03-13-002-03-390
                                       U.S. Department of Labor – Office of Inspector General


                                                                                Appendix G
Acknowledgements

Key contributors to this report were Michael Hill (Audit Director), Michael Elliott (Audit
Manager), Ted Lawson, Barry Weiss, Janet Cucunato, and Ajit Buttar.




                                          Northwest Pennsylvania Workforce Investment Board
                                         39                   Report No. 03-13-002-03-390
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
